APPENDIX AX
DECLARATION OF PETITIONER
IN THE SUPREME COURT OF THE UNITED STATES

set TBD

Cal. S Ct S256601
Case No.: 14-0-00848

SANJAY BHARDWAJ,

(State Bar Court)

Petitioner,
vs.

PETITIONER’S DECLARATION
IN SUPPORT OF PETIION FOR
WRIT OF CERTIORARI

State Bar of California,
Respondent.

September 26, 2020

PETITIONER’S DECLARATION IN SUPPORT OF PETITION FOR WRIT
OF CERTIORARI
I, Sanjay Bhardwaj, hereby declare that:
1. I am adult, competent, able, willing and competent to testify.
2. All facts conveyed in this pleading are true and correct to the best of my
knowledge.
3.1 appeared personally at trial in case 14-0-0848 at State Bar Court, Sixth
Floor at 80 Howard Street San Francisco CA, in courtroom 2 on 1.17.17,
1.18.17, 1.19.17, 1.20.17 and 1.24.17. The two state bar witnesses, Paul W
Thorndal and Tejinder Cooner were not sworn in live proceedings.
4.1 asked for a new trial on the aspect of whether these witnesses
were sworn in,
.)
with the State Bar Court Hearing Dept., Review Dept, and California
PETITION FOR WRIT OF CERTIORARI

24

*

papers are true as of my own personal knowledge, except as to those matters
therein stated upon information and belief, and as to those matters, I believe
them to be true.

Executed on 9.26.20

at Fremont California.

PETITION FOR WRIT OF CERTIORARI

26

